               .,

                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                                  CLOSEOUT MEMORANDUM




        The National Science Foundation, OIG opened this investigation based upon information in an
        A-l33I?udit report for a university1 which indicated that an employee2 in the finance office who,




                            y , case is closed.
        ~ c c o r d i h ~ lthis




1
NSF OIG Form 2 (1 1/02)
                          .,
                          '
                                                                                            ,-
                                                                                                            'I
